Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   SOUTH FLORIDA DURABLE
     MEDICAL EQUIPMENT
    SUPPLIERS: RESULTS OF
           APPEALS




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                     OEI-03-07-00540
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of fraud and misconduct related to HHS programs, operations, and
beneficiaries. With investigators working in all 50 States and the District of Columbia, OI
utilizes its resources by actively coordinating with the Department of Justice and other
Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims
Act, program exclusion, and civil monetary penalty cases. In connection with these cases,
OCIG also negotiates and monitors corporate integrity agreements. OCIG renders
advisory opinions, issues compliance program guidance, publishes fraud alerts, and
provides other guidance to the health care industry concerning the anti-kickback statute
and other OIG enforcement authorities.
Δ   E X E C U T I V E                                     S U M M A R Y


                  OBJECTIVES
                  1. To determine the number of South Florida durable medical
                     equipment suppliers that were removed from the Medicare program
                     (as a result of an Office of Inspector General (OIG)-led initiative)
                     and later appealed and were reinstated by hearing officers.

                  2. To determine the types of evidence that hearing officers reviewed for
                     the South Florida suppliers that were reinstated.

                  3. To determine the number of reinstated South Florida suppliers that
                     were later removed from the Medicare program or indicted for fraud.


                  BACKGROUND
                  Suppliers of durable medical equipment, prosthetics, orthotics, and
                  supplies (hereinafter referred to as suppliers) must enroll in the
                  Medicare program to sell or rent medical equipment and supplies to
                  Medicare beneficiaries and to submit claims for Medicare
                  reimbursement. The Centers for Medicare & Medicaid Services (CMS)
                  contracts with the National Supplier Clearinghouse (NSC) to manage
                  the enrollment of suppliers in the Medicare program.

                  Suppliers must comply with Medicare’s supplier standards. If a
                  supplier fails to comply with all supplier standards, CMS may deny or
                  revoke the supplier’s billing privileges. A supplier whose Medicare
                  billing privileges have been denied or revoked may appeal the
                  determination. A supplier’s billing privileges can also be inactivated at
                  any time for several reasons, such as failure to submit Medicare claims
                  for four consecutive quarters.

                  A significant amount of supplier fraud and abuse has recently been
                  identified in South Florida. The Department of Health and Human
                  Services and the Department of Justice formed a Medicare Fraud Strike
                  Force (Strike Force) comprised of Federal, State, and local investigators
                  to combat fraud through the use of real-time analysis of Medicare
                  billing data. Over a 3-month period in 2007, 56 individuals were
                  charged in South Florida with fraudulently billing Medicare more than
                  $258 million. As of March 2008, the Strike Force had brought charges
                  against 120 defendants, resulting in 101 convictions. According to CMS,
                  as of April 2007, over three-quarters of all supplier revocations (734 of
                  938) nationwide during fiscal year 2007 occurred in Miami-Dade,
                  Broward, and Palm Beach Counties.


OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   i
    E X E C U T I V E                                S U           M M A R Y

                  In March 2007, OIG issued a report about South Florida suppliers. OIG
                  staff, along with CMS and its contractor staff, conducted unannounced
                  site visits to 1,581 suppliers located in Miami-Dade, Broward, and Palm
                  Beach Counties. OIG found 491 suppliers that failed to maintain a
                  physical facility or were not open and staffed during the unannounced
                  site visits. OIG referred these 491 suppliers to CMS so that CMS could
                  consider revocation. CMS revoked these suppliers’ billing privileges.

                  For the suppliers that appealed their billing privileges revocations and
                  received hearings, we reviewed the appeal files. We determined the
                  types of evidence suppliers submitted to appeal the revocations of their
                  billing privileges. We also reviewed CMS policies, procedures, and
                  written responses to our questions regarding the supplier hearing
                  process and hearing officer criteria.

                  NSC conducted a follow-up project to review suppliers that were
                  reinstated as a result of appeals. We used NSC data as of March 2008
                  to identify the status of reinstated suppliers. We obtained information
                  on indictments and convictions from our Office of Investigations as of
                  April 2008.


                  FINDINGS
                  Nearly half of the 491 revoked South Florida suppliers appealed and
                  received hearings; hearing officers reinstated the billing privileges
                  for 91 percent of these suppliers. After our prior study, hearing
                  officers conducted hearings for 243 of the 491 revoked South Florida
                  suppliers. Billing privileges were reinstated for 91 percent of these
                  suppliers (222 of 243).
                  Because there are no criteria regarding the types of evidence
                  necessary to reinstate supplier billing privileges, hearing officers
                  reinstated billing privileges based on a variety of evidence.
                  Although CMS has developed procedural guidelines for hearings, it has
                  not provided hearing officers with criteria regarding the types of
                  evidence revoked suppliers must submit to have their billing privileges
                  reinstated. Therefore, hearing officers reviewed various types of
                  evidence to reinstate the revoked South Florida suppliers’ billing
                  privileges. Examples of evidence that suppliers provided include
                  photographs, affidavits, utility bills, and leases.




OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   ii
 E X E C U T I V E                              S U           M M A R Y


                  Two-thirds of suppliers whose billing privileges were reinstated
                  have subsequently had their privileges revoked or inactivated, and
                  some individuals connected to reinstated suppliers have been
                  indicted. Half of suppliers whose billing privileges were reinstated
                  (111 of 222) have subsequently had their privileges revoked. An
                  additional 17 percent of suppliers (37 of 222) have had their billing
                  privileges inactivated. As a result, two-thirds of suppliers whose billing
                  privileges were reinstated by hearing officers (148 of 222) had their
                  privileges revoked again or inactivated.

                  In addition, between April and September 2007, the U.S. Attorney’s
                  Office indicted 18 individuals connected to 15 of the 222 reinstated
                  suppliers. As of April 2008, 10 of the 18 defendants had been convicted
                  and were each ordered to pay between $90,000 and $11 million in
                  restitution. These 10 defendants were also sentenced to jail terms
                  ranging from 1 to 4 years.


                  RECOMMENDATION
                  To protect beneficiaries and the integrity of Medicare payments, CMS
                  has developed standards that suppliers must meet to enroll in Medicare.
                  CMS has also taken steps to ensure suppliers’ compliance with these
                  standards. For example, CMS has announced a 2-year demonstration
                  project designed to identify noncompliant suppliers and detect
                  potentially fraudulent supplier behavior. These efforts may result in
                  CMS denying or revoking billing privileges for suppliers that do not
                  meet all Medicare enrollment standards.

                  All suppliers whose billing privileges have been denied or revoked may
                  appeal and request a hearing. However, there are no criteria for
                  hearing officers regarding the types of evidence required to reinstate a
                  supplier’s billing privileges. Hearing officers generally accept all
                  documentation submitted by suppliers as legitimate, unless they have
                  reason to believe otherwise. Our findings suggest that a more critical
                  review of the types of evidence submitted by suppliers is warranted to
                  ensure that fraudulent suppliers are not reinstated.

                  Therefore, we recommend that CMS:
                  Strengthen the appeal process by developing criteria regarding the types of
                  evidence required for hearing officers to reinstate suppliers’ billing
                  privileges.




OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   iii
E X E C U T I V E                            S U           M M A R Y


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In responding to our report, CMS stated that it has been taking
                  aggressive steps to prevent fraud and abuse in the Medicare program.
                  For example, CMS points out that all suppliers will need to become
                  accredited by October 1, 2009, which CMS believes will ensure that only
                  legitimate suppliers serve Medicare beneficiaries.

                  CMS agreed that it should consider establishing guidelines regarding
                  the evaluation of evidence that a hearing officer will review. CMS
                  believes that it would be useful for OIG to provide specific suggestions
                  regarding appropriate criteria for hearing officers. However, CMS
                  stated that any guidance provided should not impinge on a hearing
                  officer’s ability to make an independent determination or with a
                  supplier’s ability to submit any evidence that it believes will support the
                  reversal of a revocation or denial decision.

                  We agree that CMS should develop criteria that maintain the
                  independence of hearing officers and suppliers’ ability to submit any
                  evidence they wish to send. We suggest that CMS develop a list of
                  evidence that it believes would support a decision to overturn various
                  reasons for revocation and that such evidence should be germane to the
                  reason for revocation. For example, if CMS revokes a supplier’s billing
                  privileges because staff was not present at the supplier’s facility after
                  multiple site visit attempts during reasonable business hours, the
                  supplier should not be reinstated based on the submission of cell phone
                  bills, leases, driver’s licenses, or photographs. Instead, reinstatement
                  should be based on evidence that the supplier met the Medicare
                  standard requiring it to maintain a physical facility that is accessible to
                  beneficiaries and CMS during reasonable business hours. CMS should
                  also develop criteria that enable hearing officers to verify the legitimacy
                  and credibility of documents submitted by suppliers as evidence during
                  appeals.




OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   iv
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 7
                   Hearing officers reinstated 91 percent of suppliers that
                   received hearings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   With no criteria regarding the types of evidence necessary
                   to reinstate supplier billing privileges, hearing officers
                   accepted various types of evidence . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   Two-thirds of suppliers whose billing privileges were
                   reinstated have subsequently been revoked or inactivated,
                   and some individuals have been indicted. . . . . . . . . . . . . . . . . . . . . 8



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                   Agency Comments and Office of Inspector General Response. . . . 11



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                   A: Medicare Supplier Standards . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                   B: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine the number of South Florida durable medical
                     equipment suppliers that were removed from the Medicare program
                     (as a result of an Office of Inspector General (OIG)-led initiative)
                     and later appealed and were reinstated by hearing officers.

                  2. To determine the types of evidence that hearing officers reviewed for
                     the South Florida suppliers that were reinstated.

                  3. To determine the number of reinstated South Florida suppliers that
                     were later removed from the Medicare program or indicted for fraud.


                  BACKGROUND
                  Medical equipment is covered under Medicare Part B and includes
                  items such as hospital beds, wheelchairs, respirators, walkers, and
                  artificial limbs. 1
                  A supplier of durable medical equipment, prosthetics, orthotics, and
                  supplies (hereinafter referred to as a supplier) is any entity or
                  individual that sells or rents Part B-covered items to Medicare
                  beneficiaries. 2 The Centers for Medicare & Medicaid Services (CMS)
                  contracts with the National Supplier Clearinghouse (NSC), operated by
                  Palmetto Government Benefits Administrators, to manage the
                  enrollment of suppliers into the Medicare program.
                  Supplier Enrollment Process
                  Suppliers must meet all supplier standards to receive payment for a
                  Medicare-covered item. 3 Appendix A contains a complete list of the
                  Medicare standards.

                  Supplier applicants must complete a Medicare enrollment application to
                  be considered for enrollment. Applicants must certify in their
                  applications that they meet and will continue to meet the Medicare

                     1 Social Security Act § 1832(a)(2)(G), 42 U.S.C. § 1395k(a)(2)(G); § 1832(a)(2)(I), 42 U.S.C.

                  § 1395k(a)(2)(I); § 1834(a)(13), 42 U.S.C. § 1395m(a)(13); § 1861(n), 42 U.S.C § 1395x(n).
                      2 42 CFR § 424.57(a).
                      3 42 CFR §§ 424.57(b) and (c). Four new supplier standards were added to the original
                  21 and published in the Federal Register. 71 Fed. Reg. 48354, 48409 (Aug. 18, 2006). The
                  additional supplier standards relate to accreditation of suppliers and are provided in
                  Appendix A. However, CMS is phasing in the accreditation process, along with its Medicare
                  Durable Medical Equipment, Prosthetics, Orthotics, and Supplies Competitive Bidding
                  Program. Any supplier that wishes to participate in competitive bidding must be
                  accredited. The deadline for all suppliers to obtain accreditation is September 30, 2009.



OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   1
      I N T R O D               U C T                I O N


                  supplier standards. Once granted billing privileges, suppliers must
                  reenroll in the Medicare program every 3 years to continue receiving
                  Medicare reimbursement. 4
                  For most suppliers, the NSC conducts an unannounced site visit before
                  approving an applicant and granting Medicare billing privileges. NSC
                  can also conduct an unannounced reenrollment site visit every 3 years.
                  Unannounced site visits may take place at any other time as deemed
                  necessary, but generally site visits occur only when suppliers enroll and
                  reenroll in the Medicare program. According to CMS, site visits are an
                  important component of successful oversight of supplier enrollment
                  because they ensure that CMS conducts business only with legitimate
                  suppliers. In many cases, site visits are the only method CMS has to
                  ensure that suppliers actually exist and meet the requirements to
                  participate in the Medicare program. 5
                  Revocation of Billing Privileges
                  If after a reenrollment site visit, or any other unannounced site visit,
                  NSC finds that a supplier no longer meets the supplier standards, NSC
                  can revoke the supplier’s billing privileges. When NSC revokes a
                  supplier’s billing privileges, NSC sends the supplier a letter that
                  explains the reason for revocation, the effective date of the revocation
                  (15 days from the date the notice is mailed), and appeal rights and
                  procedures. The supplier cannot receive reimbursement from Medicare
                  for medical equipment furnished on or after the effective date of the
                  revocation.
                  Appeal Process
                  A supplier whose Medicare enrollment application has been denied or
                  whose Medicare billing privileges have been revoked may appeal the
                  determination. When NSC denies a supplier’s application or revokes a
                  supplier’s billing privileges, the supplier has two options to contest the
                  determination: the supplier may submit a corrective action plan or
                  request a reconsideration (hereinafter referred to as a hearing). A
                  supplier must submit its corrective action plan or request a hearing
                  within 90 days from the postmark of the denial or revocation letter. A
                  supplier may not submit a corrective action plan and request a hearing
                  at the same time.



                      4 42 CFR §§ 424.57(c) and (e).
                      5 71 Fed. Reg. 20754, 20755 (Apr. 21, 2006).




OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   2
   I N T R O D            U C T                I O N



                  Corrective Action Plan. If a supplier chooses to submit a corrective action
                  plan to NSC, the plan must contain evidence of compliance. The plan
                  must also provide sufficient assurance of the supplier’s intent to comply
                  with the supplier standards. If CMS and NSC are satisfied that issues of
                  noncompliance have been resolved, the supplier’s billing privileges may be
                  granted or reinstated.
                  Hearing. A hearing is an independent review by a hearing officer of the
                  initial determination and the entire body of evidence, including any new
                  information submitted by the supplier or NSC. It is the responsibility of
                  the supplier to show that its billing privileges were denied or revoked
                  erroneously. 6
                  Once the supplier submits its request for a hearing, NSC has 15 days to
                  forward the hearing package to a hearing officer. The hearing officer
                  then has 90 days to schedule and conduct a hearing and render a
                  decision.
                  Fraudulent and Abusive Supplier Activity in South Florida
                  The Department of Health and Human Services (HHS), the Department
                  of Justice (DOJ), and others have recently identified and documented a
                  significant amount of supplier fraud in South Florida. This fraud
                  includes suppliers billing for services that are not rendered and billing
                  for services that are not medically necessary. NSC reports that Florida
                  led the Nation for allegations of supplier noncompliance with Medicare
                  standards during the last two quarters of 2006, as a result of allegations
                  in Miami-Dade and Broward Counties. 7 According to CMS, as of April
                  2007, 78 percent of all supplier revocations (734 of 938) nationwide
                  during fiscal year 2007 occurred in Miami-Dade, Broward, and Palm
                  Beach Counties. 8
                  Response to Fraud and Abuse in South Florida
                  In March 2007, HHS and DOJ formed a Medicare Fraud Strike Force
                  (Strike Force) made up of Federal, State, and local investigators to
                  combat the fraudulent activities of suppliers in South Florida through
                  the use of real-time analysis of Medicare billing data. During a 3-month


                      6 CMS, “Medicare Program Integrity Manual,” Pub. No. 100-08, ch. 10, § 19A.
                      7 “Supplier Audit and Compliance Unit Intelligence Report.” Palmetto Government
                  Benefits Administrators, NSC, pp. 14–15. April 19, 2007.
                      8 HHS, “Medicare Provider Enrollment Demonstration Involving Suppliers of DMEPOS
                  in High-Risk Areas.” Available online at
                  http://www.hhs.gov/news/facts/medicarefraud/index.html. Accessed on December 12, 2007.



OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   3
   I N T R O D            U C T                I O N


                  period in 2007, 56 individuals were charged in South Florida with
                  fraudulently billing Medicare more than $258 million. As of March
                  2008, the Strike Force had brought charges against 120 defendants,
                  resulting in 101 convictions. 9
                  In June 2007, CMS announced a 2-year demonstration project to
                  strengthen its ability to detect and prevent fraudulent activity in South
                  Florida. 10 The demonstration was designed to detect potential
                  fraudulent behavior at both the preenrollment stage as well as after
                  suppliers are enrolled in Medicare. Under this demonstration, all
                  suppliers in South Florida are required to submit a Medicare
                  enrollment application to NSC. A supplier’s Medicare billing privileges
                  will be revoked if the supplier fails to meet certain requirements, such
                  as reporting a change of ownership or address. Finally, suppliers whose
                  billing privileges are not revoked will be subject to an enhanced review
                  and will be assigned a fraud-level indicator by NSC. To determine the
                  appropriate fraud-level indicator for each supplier, NSC will consider
                  factors such as supplier location, fraud potential of products and
                  services provided by the supplier, and site visit results.
                  Office of Inspector General Site Visits
                  In March 2007, OIG issued a report entitled “South Florida Suppliers’
                  Compliance With Medicare Standards: Results From Unannounced
                  Site Visits” (OEI-03-07-00150). OIG staff, along with CMS and its
                  contractor staff at NSC, conducted unannounced site visits to
                  1,581 suppliers located in Miami-Dade, Broward, and Palm Beach
                  Counties. OIG conducted these site visits to determine whether each
                  supplier was in compliance with two supplier standards, which included
                  four specific requirements: 11
                          •       The supplier must maintain a physical facility (Standard 7).

                          •       The facility must be accessible during business hours
                                  (Standard 8).

                          •       The facility must have a visible sign (Standard 8).


                      9 DOJ, “Miami Jury Convicts Physician and Three Business Owners of Medicare Fraud.”

                  Available online at http://www.usdoj.gov/opa/pr/2008/March/08_crm_183.html. Accessed on
                  March 26, 2008.
                     10 HHS, “Medicare Provider Enrollment Demonstration Involving Suppliers of DMEPOS
                  in High-Risk Areas.” Available online at
                  http://www.hhs.gov/news/facts/medicarefraud/index.html. Accessed on December 12, 2007.
                      11 42 CFR §§ 424.57(c)(7) and (8).




OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   4
 I N T R O D          U C T                I O N


                          •       The supplier’s hours of operation must be posted (Standard 8).

                  If during an onsite review a facility is found closed during business
                  hours, this becomes grounds for revocation in that the facility was found
                  not in operation. A supplier must be operational upon site inspection to
                  verify compliance with the Medicare supplier standards. “Operational”
                  means the supplier has a qualified physical practice location; is open to
                  the public for the purpose of providing health care related services; is
                  prepared to submit valid Medicare claims; and is properly staffed,
                  equipped, and stocked. 12
                  Site Visit Results. A total of 491 of 1,581 suppliers (31 percent) failed to
                  maintain physical facilities or were not open and staffed during the
                  unannounced site visits. These suppliers did not maintain appropriate
                  physical facilities, or their facilities were not accessible to beneficiaries
                  during reasonable or posted business hours on at least two visits. OIG
                  referred these suppliers to CMS so that CMS could consider revocation of
                  the suppliers’ Medicare billing privileges.

                  Effective January 1, 2007, CMS revoked the billing privileges of these
                  491 suppliers. NSC sent letters to the 491 suppliers stating that a recent
                  site visit was unsuccessful because the supplier’s “. . . site was either no
                  longer at the location on file or not open on multiple attempts. Because
                  [NSC] could not complete an inspection of [the supplier’s] facility, [NSC]
                  could not verify [the supplier’s] compliance with the standards.”
                  Therefore, NSC considered these suppliers to be out of compliance with all
                  supplier standards.

                  After CMS revoked the suppliers’ billing privileges, hearing officers
                  conducted hearings and determined whether to reinstate suppliers that
                  appealed the revocations.
                  Follow-Up Site Visit Project
                  After hearing officers conducted the supplier hearings, NSC began a
                  follow-up project to determine suppliers’ compliance with Medicare
                  standards. NSC conducted unannounced site visits to suppliers,
                  including those whose billing privileges were initially revoked as a
                  result of the OIG study and then reinstated by hearing officers. Most of
                  the suppliers that NSC visited were located in Miami-Dade County and
                  had been in the Medicare program only for a short amount of time.
                  NSC conducted most of the site visits between March and July 2007.

                      12 42 CFR § 424.502.




OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   5
 I N T R O D          U C T                I O N


                  Using the standard NSC site visit protocol, NSC determined whether
                  the reinstated suppliers were in compliance with the supplier
                  standards.


                  METHODOLOGY
                  Data Collection and Analysis
                  We requested appeal files from NSC for any of the 491 suppliers whose
                  billing privileges were revoked as a result of OIG’s work in South
                  Florida. Between April and September 2007, we received the supplier
                  files from NSC. We reviewed the files to determine the number of
                  suppliers that received hearings and were reinstated by hearing
                  officers.

                  We reviewed the documents in the appeal files to determine the number
                  and types of evidence submitted by suppliers. We also reviewed CMS
                  policies and procedures, including 42 CFR § 424.57, the CMS “Medicare
                  Program Integrity Manual,” and NSC’s Statement of Work.
                  Additionally, in December 2007, CMS provided written responses to our
                  questions regarding hearing officer criteria and the hearing process.

                  We requested regular updates from NSC on its follow-up project and the
                  status of reinstated suppliers. We used NSC data as of March 2008 to
                  identify whether suppliers that were reinstated by hearing officers
                  subsequently had their billing privileges revoked or inactivated. We
                  obtained information on indictments and convictions from our Office of
                  Investigations as of April 2008.
                  Limitations
                  We requested all appeal files from NSC for the 491 revoked suppliers.
                  We relied on NSC to provide us with complete appeal files. Our review
                  of the suppliers’ appeal files was based only on the documents NSC
                  provided to us in response to our request.

                  Because our review was focused on suppliers that appealed and received
                  hearings, we did not provide details on suppliers that submitted
                  corrective action plans.
                  Standards
                  This study was conducted in accordance with the “Quality Standards for
                  Inspections” issued by the President’s Council on Integrity and
                  Efficiency and the Executive Council on Integrity and Efficiency.




OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   6
Δ       F I N D I N G S


   Nearly half of the 491 revoked South Florida             Hearing officers conducted
     suppliers appealed and received hearings;              hearings for 243 of the
hearing officers reinstated the billing privileges          491 South Florida suppliers
               for 91 percent of these suppliers            whose billing privileges NSC
                                                            revoked as a result of our prior
                   study. These suppliers appealed the revocations of their Medicare
                   billing privileges and requested hearings. Based on submitted evidence
                   and hearing testimony, hearing officers determined whether to reinstate
                   the suppliers’ billing privileges. Hearing officers reinstated the billing
                   privileges for 91 percent of the suppliers that appealed and received
                   hearings (222 of 243).
                   Three hearing officers conducted all of the hearings for the 243 South
                   Florida suppliers. One of these hearing officers conducted 54 supplier
                   hearings and reinstated billing privileges for all 54 suppliers. Another
                   hearing officer reinstated billing privileges for 87 of 93 suppliers
                   (94 percent), and the third hearing officer reinstated billing privileges
                   for 81 of 96 suppliers (84 percent).

                   Many suppliers were represented by attorneys or consultants during the
                   appeal process and at the suppliers’ hearings. Six firms represented
                   60 percent of the suppliers that appealed and received hearings
                   (145 of 243). An attorney who represented 15 suppliers during the
                   appeal process was indicted and pled guilty to Medicare fraud in
                   March 2007. As alleged in court documents, the attorney facilitated the
                   fraudulent sale of 67 South Florida suppliers to nominee (or “straw”)
                   purchasers who acted in place of the true purchasers of the companies.
                   The attorney used various legal documents to conceal the true
                   purchasers of the companies.

 Because there are no criteria regarding the types                                                               Information regarding the
                                                                                                                 hearing process is found in
of evidence necessary to reinstate supplier billing
                                                                                                                 Federal Regulations, CMS’s
      privileges, hearing officers reinstated billing
                                                                                                                 “Medicare Program Integrity
         privileges based on a variety of evidence                                                               Manual,” and NSC’s
                                                                                                                 Statement of Work. 13 These


                       13 CMS specifically cited the following three authorities as applicable: 42 CFR § 424.57;

                   CMS, “Medicare Program Integrity Manual,” Pub. No. 100-08, ch.10, § 19; and Statement of
                   Work, NSC. We note that 42 CFR § 405.874 is also a key applicable regulatory section.



 OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   7
        F   I N D I N G                S


                     documents include procedural guidelines for hearing officers, such as
                     timeframes for conducting hearings and issuing determinations.
                     However, these documents do not include criteria regarding the types of
                     evidence hearing officers must receive from suppliers to reinstate their
                     billing privileges. According to CMS, hearing officers accept all
                     documentation submitted by suppliers, unless there is reason to believe
                     the information is not legitimate. 14
                     Because there are no criteria regarding the types of evidence necessary
                     to reinstate supplier billing privileges, suppliers reinstated by hearing
                     officers submitted various types of evidence to appeal the revocations of
                     their billing privileges. For example, at least 75 percent of reinstated
                     suppliers submitted photographs, licenses and permits, or evidence
                     related to medical equipment. Suppliers also provided affidavits or
                     statements from suppliers’ owners stating that their businesses were
                     open on the dates of the site visits. Over half of reinstated suppliers
                     submitted evidence related to their businesses’ facilities, such as leases
                     or utility bills. The types of evidence submitted by suppliers and the
                     percentage of reinstated suppliers that submitted each type of evidence
                     are presented in Table 1 on the next page.

         Two-thirds of suppliers whose billing             The billing privileges of half of the
                                                           suppliers (111 of 222) that were
privileges were reinstated have subsequently
                                                           reinstated by hearing officers have
   had their privileges revoked or inactivated,
                                                           subsequently been revoked as a
and some individuals connected to reinstated               result of NSC’s follow-up project and
                  suppliers have been indicted             its continuing efforts to identify
                                                           suppliers that do not meet Medicare
                     standards. In addition, 17 percent of suppliers (37 of 222) have had
                     their billing privileges inactivated. As a result, two-thirds of suppliers
                     whose billing privileges were reinstated by hearing officers (148 of 222)
                     had their privileges revoked again or inactivated.
                     In addition, the U.S. Attorney’s Office has indicted 18 individuals
                     connected to suppliers whose billing privileges were reinstated by
                     hearing officers. These 18 people were indicted between April and
                     September 2007 and were connected to 15 of the 222 suppliers that
                     hearing officers reinstated. As of April 2008, 10 of the 18 defendants
                     had been convicted and each was ordered to pay between $90,000 and


                         14 CMS written response to OIG questions. December 2007.




   OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   8
F   I N D I N G               S


                             $11 million in restitution. These 10 defendants were also sentenced to
                             jail terms ranging from 1 to 4 years.



Table 1: Types of Evidence Submitted by Suppliers at Hearings

                                                  Percentage of Reinstated Suppliers
                                                  That Submitted at Least One                                          Examples of Documents Submitted
Types of Evidence
                                                  Document Related to This Type of                                     by Suppliers
                                                  Evidence
                                                                                                                       Photographs of suppliers’ facilities,
Photographs                                                                    79%                                     employees, posted hours, signs,
                                                                                                                       medical equipment supplies
                                                                                                                       Occupational license, driver’s license,
Licenses and permits                                                           78%
                                                                                                                       insurance certificate, State permit
                                                                                                                       Vendor invoice, delivery slip,
Medical equipment evidence                                                     75%
                                                                                                                       equipment maintenance agreement
                                                                                                                       Affidavits/statements from owners,
Affidavits/statements                                                          70%
                                                                                                                       employees, neighboring businesses
Physical facility evidence                                                     57%                                     Lease, electric bill, rent receipt
                                                                                                                       Delivery receipt from bottled water
Other                                                                          51%                                     company, business cards, “On delivery”
                                                                                                                       signs
Phone evidence                                                                 46%                                     Land-line phone bill, cell phone bill
Banking evidence                                                               41%                                     Bank statement, copy of check
                                                                                                                       Summary of claims, Medicare
Claims evidence                                                                35%
                                                                                                                       remittance notice
Fax evidence                                                                   29%                                     Fax cover sheet, fax confirmation sheet
Site inspection evidence                                                       28%                                     NSC report on previous site inspection
Log evidence                                                                   13%                                     Visitor log, alarm system log
Employee evidence                                                              13%                                     Employee timesheet
Patient evidence                                                               10%                                     Form with patient signature




    OEI-03-07-00540          S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS             9
Δ   R E C O M M E N D A T I O N




                  To protect beneficiaries and the integrity of Medicare payments, CMS
                  has developed standards that suppliers must meet to enroll in Medicare.
                  CMS has also taken steps to ensure suppliers’ compliance with these
                  standards. For example, CMS has announced a 2-year demonstration
                  project designed to identify noncompliant suppliers and detect
                  potentially fraudulent supplier behavior. These efforts may result in
                  CMS denying or revoking billing privileges for suppliers that do not
                  meet all Medicare enrollment criteria found in 42 CFR § 424.57.

                  All suppliers whose billing privileges have been denied or revoked may
                  appeal and request a hearing. This is an important process to ensure
                  that only billing privileges for suppliers that fail to meet the supplier
                  standards are denied or revoked.

                  There are no criteria for hearing officers regarding the types of evidence
                  required to reinstate a supplier’s billing privileges. For suppliers that
                  request a hearing, hearing officers generally accept all documentation
                  submitted as legitimate, unless they have reason to believe otherwise.
                  Hearing officers reinstated the billing privileges for 91 percent of the
                  South Florida suppliers that were revoked as a result of OIG’s prior
                  study and received hearings. These billing privileges were revoked
                  based on the results of the OIG-led unannounced site visits, yet were
                  reinstated after suppliers submitted a wide variety of evidence to
                  hearing officers. Two-thirds of these suppliers’ billing privileges have
                  subsequently been revoked or inactivated, and individuals connected to
                  some of these suppliers have been indicted. Our findings suggest that a
                  more critical review of supplier evidence is warranted to ensure that
                  fraudulent suppliers’ billing privileges are not reinstated.

                  Therefore, we recommend that CMS:
                  Strengthen the Appeal Process by Developing Criteria Regarding the Types
                  of Evidence Required for Hearing Officers To Reinstate Suppliers’ Billing
                  Privileges
                  CMS should develop clear criteria for hearing officers on the types of
                  evidence suppliers should submit for hearing officers to reinstate the
                  suppliers’ billing privileges. CMS could develop a list of evidence that
                  would support the need for overturning various types of revocations.
                  CMS or hearing officers could provide this list of documents to suppliers

OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   10
R   E C O         M M E N D A T                             I O N

                     before a determination is made. Once suppliers have submitted their
                     evidence, hearing officers could also take steps to verify the legitimacy
                     of certain types of evidence. CMS could provide standard training to all
                     hearing officers regarding the types of evidence required to reinstate
                     supplier billing privileges.


                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                     RESPONSE
                     In responding to our report, CMS stated that it has been taking
                     aggressive steps to prevent fraud and abuse in the Medicare program.
                     CMS points out that, most importantly, all suppliers will need to
                     become accredited by October 1, 2009, which CMS believes will ensure
                     that only legitimate suppliers serve Medicare beneficiaries.
                     Additionally, CMS published a final rule in June 2008 which extends
                     appeal rights to all providers and suppliers whose enrollment
                     applications for Medicare billing privileges are denied or revoked by
                     CMS or a Medicare contractor. 15 The rule also limits the submission of
                     new evidence during an Administrative Law Judge review, requiring
                     providers and suppliers to submit evidence and documentation at the
                     lower levels of appeal. Finally, CMS stated that in March 2008, it
                     established model provider enrollment letters, including letters
                     regarding adverse provider enrollment determinations, that will help to
                     ensure that applicants and enrolled providers and suppliers will be
                     informed about the reason(s) for a denial or revocation and will be
                     afforded the appropriate appeal rights.

                     CMS agreed that it should consider establishing guidelines regarding
                     the evaluation of evidence that a hearing officer will review. CMS
                     believes that it would be useful for OIG to provide specific suggestions
                     regarding appropriate criteria for hearing officers. However, CMS
                     stated that any guidance provided should not impinge on a hearing
                     officer’s ability to make an independent determination or with a
                     supplier’s ability to submit any evidence that it believes will support the
                     reversal of a revocation or denial decision. For the full text of CMS’s
                     comments, see Appendix B.

                     We agree that CMS should develop criteria that maintain the
                     independence of hearing officers and suppliers’ ability to submit any


                         15 73 Fed. Reg. 36449 (June 27, 2008).




OEI-03-07-00540      S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   11
 R   E C O        M M E N D A T                               I O N

                    evidence they wish to send. We suggest that CMS develop a list of
                    evidence that it believes would support a decision to overturn various
                    reasons for revocation and that such evidence should be germane to the
                    reason for revocation. For example, if CMS revokes a supplier’s billing
                    privileges because staff was not present at the supplier’s facility after
                    multiple site visit attempts during reasonable business hours, the
                    supplier should not be reinstated based on the submission of cell phone
                    bills, leases, driver’s licenses, or photographs. Instead, reinstatement
                    should be based on evidence that the supplier met the Medicare
                    standard requiring it to maintain a physical facility that is accessible to
                    beneficiaries and to CMS during reasonable business hours. CMS
                    should also develop criteria that enable hearing officers to verify the
                    legitimacy and credibility of documents submitted by suppliers as
                    evidence during appeals.




OEI-03-07-00540     S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   12
Δ        A P P E N D I X                                A

Medicare Supplier Standards, 42 CFR § 424.57(c)

(1) Operates its business and furnishes Medicare-covered items in compliance with all
applicable Federal and State licensure and regulatory requirements;

(2) Has not made, or caused to be made, any false statement or misrepresentation of a
material fact on its application for billing privileges. (The supplier must provide complete and
accurate information in response to questions on its application for billing privileges. The
supplier must report to CMS any changes in information supplied on the application within
30 days of the change.);

(3) Must have the application for billing privileges signed by an individual whose signature
binds a supplier;

(4) Fills orders, fabricates, or fits items from its own inventory or by contracting with other
companies for the purchase of items necessary to fill the order. If it does, it must provide,
upon request, copies of contracts or other documentation showing compliance with this
standard. A supplier may not contract with any entity that is currently excluded from the
Medicare program, any State health care programs, or from any other Federal Government
Executive Branch procurement or nonprocurement program or activity;

(5) Advises beneficiaries that they may either rent or purchase inexpensive or routinely
purchased durable medical equipment, and of the purchase option for capped rental durable
medical equipment, as defined in Sec. 414.220(a) of this subchapter. (The supplier must
provide, upon request, documentation that it has provided beneficiaries with this information,
in the form of copies of letters, logs, or signed notices.);

(6) Honors all warranties expressed and implied under applicable State law. A supplier must
not charge the beneficiary or the Medicare program for the repair or replacement of
Medicare-covered items or for services covered under warranty. This standard applies to all
purchased and rented items, including capped rental items, as described in Sec. 414.229 of
this subchapter. The supplier must provide, upon request, documentation that it has
provided beneficiaries with information about Medicare-covered items covered under
warranty, in the form of copies of letters, logs, or signed notices;

(7) Maintains a physical facility on an appropriate site. The physical facility must contain
space for storing business records including the supplier's delivery, maintenance, and
beneficiary communication records. For purposes of this standard, a post office box or
commercial mailbox is not considered a physical facility. In the case of a multisite supplier,
records may be maintained at a centralized location;

(8) Permits CMS, or its agents to conduct on-site inspections to ascertain supplier compliance
with the requirements of this section. The supplier location must be accessible during
reasonable business hours to beneficiaries and to CMS, and must maintain a visible sign and
posted hours of operation;

(9) Maintains a primary business telephone listed under the name of the business locally or
toll-free for beneficiaries. The supplier must furnish information to beneficiaries at the time

      OEI-03-07-00540    S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   13
   A   P   P E N D       I X ~           A


of delivery of items on how the beneficiary can contact the supplier by telephone. The
exclusive use of a beeper number, answering service, pager, facsimile machine, car phone, or
an answering machine may not be used as the primary business telephone for purposes of this
regulation;

(10) Has a comprehensive liability insurance policy in the amount of at least $300,000 that
covers both the supplier's place of business and all customers and employees of the supplier.
In the case of a supplier that manufactures its own items, this insurance must also cover
product liability and completed operations. Failure to maintain required insurance at all
times will result in revocation of the supplier’s billing privileges retroactive to the date the
insurance lapsed;

(11) Must agree not to contact a beneficiary by telephone when supplying a Medicare-covered
item unless one of the following applies:
(i) The individual has given written permission to the supplier to contact them by telephone
concerning the furnishing of a Medicare-covered item that is to be rented or purchased.
(ii) The supplier has furnished a Medicare-covered item to the individual and the supplier is
contacting the individual to coordinate the delivery of the item.
(iii) If the contact concerns the furnishing of a Medicare-covered item other than a covered
item already furnished to the individual, the supplier has furnished at least one covered item
to the individual during the 15-month period preceding the date on which the supplier makes
such contact.

(12) Must be responsible for the delivery of Medicare covered items to beneficiaries and
maintain proof of delivery. (The supplier must document that it or another qualified party
has at an appropriate time, provided beneficiaries with necessary information and
instructions on how to use Medicare-covered items safely and effectively);

(13) Must answer questions and respond to complaints a beneficiary has about the
Medicare-covered item that was sold or rented. A supplier must refer beneficiaries with
Medicare questions to the appropriate carrier. A supplier must maintain documentation of
contacts with beneficiaries regarding complaints or questions;

(14) Must maintain and replace at no charge or repair directly, or through a service contract
with another company, Medicare-covered items it has rented to beneficiaries. The item must
function as required and intended after being repaired or replaced;

(15) Must accept returns from beneficiaries of substandard (less than full quality for the
particular item or unsuitable items, inappropriate for the beneficiary at the time it was fitted
and rented or sold);

(16) Must disclose these supplier standards to each beneficiary to whom it supplies a
Medicare-covered item;

(17) Must comply with the disclosure provisions in Sec. 420.206 of this subchapter;

(18) Must not convey or reassign a supplier number;



       OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   14
   A   P   P E N D       I X ~           A


(19) Must have a complaint resolution protocol to address beneficiary complaints that relate to
supplier standards in paragraph (c) of this section and keep written complaints, related
correspondence and any notes of actions taken in response to written and oral complaints.
Failure to maintain such information may be considered evidence that supplier standards
have not been met. (This information must be kept at its physical facility and made available
to CMS, upon request.);

(20) Must maintain the following information on all written and oral beneficiary complaints,
including telephone complaints, it receives:
(i) The name, address, telephone number, and health insurance claim number of the
beneficiary.
(ii) A summary of the complaint; the date it was received; the name of the person receiving the
complaint, and a summary of actions taken to resolve the complaint.
(iii) If an investigation was not conducted, the name of the person making the decision and the
reason for the decision.

(21) Provides to CMS, upon request, any information required by the Medicare statute and
implementing regulations.

The following items have been added as Medicare supplier standards in the Federal Register
notice dated August 16, 2006. The additional standards relate to the accreditation of
suppliers. However, CMS is phasing-in the accreditation process, along with its Medicare
Durable Medical Equipment, Prosthetics, Orthotics, and Supplies (DMEPOS) Competitive
Bidding Program. Any supplier that wishes to participate in competitive bidding must be
accredited or pending accreditation. The deadline for all suppliers to obtain accreditation is
September 30, 2009.

(22) All suppliers of DMEPOS and other items and services must be accredited by a
CMS-approved accreditation organization in order to receive and retain a supplier billing
number. The accreditation must indicate the specific products and services for which the
supplier is accredited in order for the supplier to receive payment for those specific products
and services.

(23) All DMEPOS suppliers must notify their accreditation organization when a new
DMEPOS location is opened. The accreditation organization may accredit the new supplier
location for 3 months after it is operational without requiring a new site visit.

(24) All DMEPOS supplier locations, whether owned or subcontracted, must meet the
DMEPOS quality standards and be separately accredited in order to bill Medicare. An
accredited supplier may be denied enrollment or their enrollment may be revoked, if CMS
determines that they are not in compliance with the DMEPOS quality standards.

(25) All DMEPOS suppliers must disclose upon enrollment all products and services,
including the addition of new product lines for which they are seeking accreditation. If a new
product line is added after enrollment, the DMEPOS supplier will be responsible for notifying
the accrediting body of the new product so that the DMEPOS supplier can be re-surveyed and
accredited for these new products.


       OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   15
Δ    A P P E N D I X                                 B

     Agency Comments




OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   16
A   P   P E N D       I X            ~           B




    OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   17
A   P   P E N D       I X            ~           B




    OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   18
A   P   P E N D       I X            ~           B




    OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   19
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Emily Dolan Multari served as the project leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Conswelia McCourt; central office staff who contributed include
                  Kevin Farber and Scott Manley.




OEI-03-07-00540   S O U T H F L O R I D A D U R A B L E M E D I C A L E Q U I P M E N T S U P P L I E R S : R E S U LT S   OF   APPEALS   20
